         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       U.S. Chemical Safety and Hazard
       Investigation Board Should Track
       Adherence to Closed
       Recommendations
       Report No. 2007-P-00010


       March 26, 2007
Report Contributors:	             Lauretta Ansah
                                  Erin Barnes-Weaver
                                  Elizabeth Grossman
                                  Jeffrey Harris
                                  Kalpana Ramakrishnan




Abbreviations

CSB          U.S. Chemical Safety and Hazard Investigation Board
EPA          U.S. Environmental Protection Agency
OIG          Office of Inspector General
OMB          Office of Management and Budget
OSHA         Occupational Safety and Health Administration
                         U.S. Environmental Protection Agency                                               2007-P-00010

                         Office of Inspector General                                                       March 26, 2007





                         At a Glance 

                                                                           Catalyst for Improving the Environment

Why We Did This Review                  U.S. Chemical Safety and Hazard Investigation
                                        Board Should Track Adherence to Closed
We conducted this review to
determine the extent to which           Recommendations
recipients adhere to closed safety
recommendations issued by the            What We Found
U.S. Chemical Safety and Hazard
Investigation Board (CSB).              Recipients have continued to adhere to closed recommendations issued by CSB.
                                        Recipients cited various reasons for doing so. Most said they addressed closed
Background                              recommendations because they made sense and it was the right thing to do.

The Clean Air Amendments of             Although CSB has continued to increase its investigative productivity, it does
1990 authorized CSB to be               not conduct followup on closed recommendations to track adherence. As a
established, to investigate             result, CSB may be unaware of whether report recipients continue to adhere to
accidents, and determine the            recommended safety procedures or return to prior practices. The CSB’s
conditions or circumstances that        guidance for developing and issuing recommendations requires followup on
led to an event in an effort to         open recommendations, but is silent regarding closed recommendations.
prevent future occurrences. Since       During our review, we received feedback from recommendation recipients
it was established in 1998,             pertaining to improving the recommendations process. Followup on closed
through 2006, CSB issued 379            recommendations would give CSB an opportunity to obtain feedback from its
safety recommendations. The             customers that could improve CSB’s practices.
CSB has closed 164 safety
recommendations directed to
facilities, corporations, trade          What We Recommend
associations, and State and
Federal agencies.                        We recommend that CSB (1) revise its guidance, Board Order 022, to include
                                         followup on closed recommendations and (2) follow up on a sample of closed
                                         recommendations every 3 years and analyze whether adherence and/or
For further information,                 recipient conditions have changed. CSB concurred with our recommendations;
contact our Office of
Congressional and Public Liaison
                                         however, it did not address the frequency of analyzing closed
at (202) 566-2391.                       recommendations as we suggested. Per Office of Management and Budget
                                         Circular A-50, we expect that CSB's response to these recommendations will
To view the full report, click on the    contain an action plan, with milestones, that will specify the size and frequency
following link:                          of closed recommendation followup. We included CSB’s complete response
www.epa.gov/oig/reports/2007/
20070326-2007-P-00010.pdf                in Appendix B.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          March 26, 2007

MEMORANDUM

SUBJECT:	              U.S. Chemical Safety and Hazard Investigation Board Should Track
                       Adherence to Closed Recommendations
                       Report No. 2007-P-00010


FROM:	                 Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:	                   The Honorable Carolyn W. Merritt
                       Chairman and Chief Executive Officer
                       U.S. Chemical Safety and Hazard Investigation Board


This is our report on the subject evaluation conducted by the Office of Inspector General
(OIG), U.S. Environmental Protection Agency (EPA), of the U.S. Chemical Safety and Hazard
Investigation Board (CSB). This report contains findings that describe the issues the OIG has
identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final CSB position. Final determinations on
matters in this report will be made by CSB managers in accordance with established resolution
procedures.

The estimated cost of this report - calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time - is $82,670.

Action Required

In accordance with Office of Management and Budget (OMB) Circular A-50, we anticipate a
written response to our recommendations. Your response should include a corrective action
plan for agreed-upon actions, including milestone dates. If the CSB and EPA-OIG are unable
to reach a resolution within 180 days of the report date by the end of the semiannual reporting
period, the OIG will list this report and reasons for the delayed resolution in its semiannual




                                                 1

report to Congress. We have no objections to the further release of this report to the public.
We will make this report available at http://www.epa.gov/oig.

If you or your staff has any questions, please contact me at (202) 566-0832 or
najjum.wade@epa.gov, or Jeffrey Harris, Product Line Director for Cross Media Issues, at
(202) 566-0831 or harris.jeffrey@epa.gov.




                                                 2

                           U.S. Chemical Safety and Hazard Investigation Board 

                           Should Track Adherence to Closed Recommendations 




                                    Table of Contents 

 Purpose           ......................................................................................................................   1


 Background ...................................................................................................................             1 


                 Legislative Authority .......................................................................................              1      


                 Recommendations Process............................................................................                        1      


 Noteworthy Achievements ...........................................................................................                        2 


 Scope and Methodology ...............................................................................................                      3


 Summary .......................................................................................................................            4 


                 Facilities Have Continued to Adhere to Closed Recommendations ..............                                               4 


                 The CSB Could Conduct Followup on Closed Recommendations.................                                                  4      


                 Followup Provides Opportunities for Customer Feedback .............................                                        5      


 Recommendations .........................................................................................................                  5      


 Agency Comments and OIG Evaluation .....................................................................                                   5      


 Status of Recommendations and Potential Monetary Benefits ................................                                                 6      




Appendices
 A     Detailed Listing of Recommendations in Sample ...............................................                                        7


 B     Agency Response ..................................................................................................                   13 


 C     Distribution ..............................................................................................................          15 

Purpose
We initiated a project to evaluate how recipients adhered to closed recommendations issued by
the U.S. Chemical Safety and Hazard Investigation Board (CSB).

Background
Legislative Authority

Congress established the CSB through Section 112(r) (6) of the Clean Air Amendments of
1990.1 The CSB started operating in 1998, to "investigate accidents to determine the conditions
and circumstances which led up to the event and to identify the cause or causes so that similar
events might be prevented." The Board consists of five members, including a chairperson
appointed by the President of the United States. The CSB’s statutory authority2 states that the
Board shall:

       (i)	     Investigate, determine, and report to the public in writing the facts, conditions, and
                circumstances and the cause or probable cause of any accidental release resulting
                in a fatality, serious injury, or substantial property damages;
       (ii)	    Issue periodic reports to the Congress, Federal, State, and local agencies, including
                EPA and the Occupational Safety and Health Administration (OSHA), concerned
                with the safety of chemical production, processing, handling, and storage, and
                other interested persons recommending measures to reduce the likelihood or the
                consequences of accidental releases and proposing corrective steps to make
                chemical production, processing, handling, and storage as safe and free from risk
                of injury as is possible and may include in such reports proposed rules or orders
                which should be issued by the Administrator or the Secretary of Labor.

The CSB’s legislative authority also notes that “The Board shall coordinate its activities with
investigations and studies conducted by other agencies of the United States having a
responsibility to protect public health and safety,” and that “The Board shall enter into a
memorandum of understanding with OSHA so as to limit duplication of activities.”3 Following
the model of the National Transportation Safety Board and the Department of Transportation,
Congress directed CSB’s investigative function as completely independent of the rulemaking,
inspection, and enforcement authorities of EPA and OSHA.

Recommendations Process

The ultimate goal of CSB investigations is to determine the root causes of accidents, which
typically result from deficiencies in safety management systems. After an incident has occurred,
CSB investigators begin by conducting detailed interviews of witnesses such as plant employees,
managers, and neighbors. Over a course of several months, investigators review evidence,
consult with Board members, and review regulations and industry practices before drafting key

1
  42 United States Code §7412 (6).
2
  42 United States Code §7412 (6)(C).
3
  42 United States Code §7412 (6)(E).


                                                   1

findings, root causes, and recommendations. The process generally takes 6 months to a year to
complete, at which time investigators submit a draft report to the Board for consideration.

The CSB’s accident and hazard investigations lead to new safety recommendations that function
as the Board's principal tool for achieving positive change. The CSB issues recommendations to
government agencies, companies, trade associations, labor unions, and others. The CSB’s Board
Order 022 establishes and defines procedures for developing, issuing, and closing
recommendations (see Figure 1).

                 Figure 1: Procedures for Followup on Recommendations




                            Source: Appendix C from Board Order 022.

When recipients satisfactorily complete recommended actions, the Board will vote to close the
recommendation. From 1998 through September 2006, the CSB completed 28 reports which
contained 379 safety recommendations. In that period, CSB closed 176 of those 379 safety
recommendations.

Noteworthy Achievements
CSB has continued to increase its investigative productivity. Goal 1 of CSB’s 2004-2008
strategic plan states that CSB will produce timely, high-quality investigation reports,
recommendations, and other technical products. Between August 2004 and December 2006,
CSB initiated 21 new investigations and completed 15 investigations.


                                               2

Scope and Methodology
We conducted our fieldwork from October 23, 2006, to December 13, 2006, in accordance with
Government Auditing Standards. To determine adherence to CSB’s closed recommendations,
we reviewed actions conducted by a sample of CSB investigative report recipients. We worked
with CSB staff to develop a judgmental sample that encompassed the breadth of CSB’s
recommendation types and report recipients. Our sample included 35 closed recommendations
(or 20 percent of CSB’s 176 closed recommendations) issued to the following investigative
report recipients: 5 facilities, 3 corporations, 4 State agencies, and 1 Federal agency. Table 1
lists the report recipients and recommendations contained in our sample, and Appendix A
provides additional details on each recommendation.

                   Table 1: Sample Report Recipients and Recommendations

Investigated Incident      Recipient                          Recommendations Category
Union Carbide Nitrogen                                        1998-05-I-LA-R1
                           Union Carbide - Taft Plant                              Facility
Asphyxiation Incident                                         1998-05-I-LA-R2
                                                              1998-014-I-CA-R2
                           Ultramar Diamond Shamrock
Tosco Avon Refinery                                           1999-014-I-CA-R3     Facility
                           Golden Eagle Refinery
Petroleum Naphtha Fire                                        1999-014-I-CA-R4
                           Tesoro Corporation                 1999-014-I-CA-R1     Corporation
                                                              2001-03-I-GA-R4
                                                              2001-03-I-GA-R5
                           Solvay Advanced Polymers,
                                                              2001-03-I-GA-R6      Facility
BP Amoco Thermal           Augusta Facility
                                                              2001-03-I-GA-R7
Decomposition Incident
                                                              2001-03-I-GA-R8
                                                              2001-03-I-GA-R2
                           Solvay Advanced Polymers, L.L.C.                        Corporation
                                                              2001-03-I-GA-R3
                                                              2002-01-I-AL-R5
                                                              2002-01-I-AL-R6
                           Georgia Pacific Naheola Mill       2002-01-I-AL-R7      Facility
Georgia Pacific                                               2002-01-I-AL-R8
Hydrogen Sulfide                                              2002-01-I-AL-R9
Poisoning                                                     2002-01-I-AL-R1
                                                              2002-01-I-AL-R2
                           Georgia Pacific Corporation                             Corporation
                                                              2002-01-I-AL-R3
                                                              2002-01-I-AL-R4
                                                              2003-06-I-TX-R8
                                                              2003-06-I-TX-R9
                           BLSR Operating                                          Facility
BLSR Operating Ltd.                                           2003-06-I-TX-R10
Vapor Cloud Fire                                              2003-06-I-TX-R11
                                                              2003-06-I-TX-R14
                           Texas Railroad Commission                               State Agency
                                                              2003-06-I-TX-R15
                                                              2002-02-I-NY-R4
Kaltech Industries Waste   New York State Department of
                                                              2002-02-I-NY-R5      State Agency
Mixing Explosion           Environmental Conservation
                                                              1998-007-I-IA-R3
Herrig Brothers Farm
                           Iowa State Fire Marshal            1998-007-I-IA-R4     State Agency
Propane Tank Explosion
                                                              1998-007-I-IA-R5
West Pharmaceutical
                           North Carolina Department of
Services Dust Explosion                                       2003-07-I-NC-R6      State Agency
                           Labor
and Fire



                                                     3

Investigated Incident            Recipient                                     Recommendations Category
Improving Reactive
                                 U.S. Environmental Protection                                               Federal
Hazard Management/                                                             2001-01-H-R4
                                 Agency                                                                      Agency
Reactives Hazard Study

We interviewed recipients either via phone calls or site visits and obtained records documenting
whether they continued to adhere to CSB’s closed recommendations. We also asked recipients
about their interactions with CSB during the reporting period and any areas for improvement in
CSB’s recommendations process.

Summary
Facilities Have Continued to Adhere to Closed Recommendations

Our analysis found that recipients adhered to closed recommendations. Recipients cited various
reasons for continuing to adhere to CSB’s closed recommendations. Most recipients adhered
because “it was the right thing to do” (62 percent) and/or “the recommendations made sense” (54
percent). Table 2 lists the frequency of reasons cited by recipients for continuing to adhere to
CSB’s closed recommendations.

           Table 2: Recommendation Recipients’ Reasons for Continued Adherence

Reason                                                                         Total Recipients (Percent)*
It was the right thing to do.                                                  8 of 13 (62%)
The recommendation made sense.                                                 7 of 13 (54%)
We would have done it anyway without CSB’s involvement.                        3 of 13 (23%)
Good will (public relations standpoint).                                       2 of 13 (15%)
Similar action recommended by another entity.                                  2 of 13 (15%)
We found CSB’s report persuasive.                                              1 of 13 (8%)
Fear of criminal charges levied by the State.                                  1 of 13 (8%)
* Results are not mutually exclusive.

The CSB Could Conduct Followup on Closed Recommendations

The CSB does not perform followup on closed recommendations. In our opinion, 42 United
States Code §7412 provides ample authority for CSB to examine closed recommendations.4
Board Order 022 implies that CSB can and should conduct followup activity at least every 6
months. Our Office of General Counsel concurred that CSB has no statutory prohibition against
closed case followup. Reviews of correspondence between CSB and recommendation recipients
suggest that CSB has continued interest in recipients’ adherence to closed recommendations.
Documentation shows that CSB has previously urged recipients to contact them “if anything
changes with regards to actions taken to address recommendations.” By conducting followup,
CSB could develop internal or management controls to assess the sustainability of their
recommendations after implementation.


4
  Specifically, 42 United States Code §§7412(r)(6) (C) and (F) provide the CSB authority to conduct followup on closed
recommendations, as do several sections in CSB’s Board Order 022.


                                                              4

Followup Provides Opportunities for Customer Feedback

Following up on closed recommendations would afford CSB an opportunity to obtain important
feedback from its customers that could improve CSB’s management practices. During our
review, recipients shared their perception that CSB’s recommendations frequently suggested
activities that the recipient claimed it already planned or completed. One recipient stated that it
welcomed CSB’s recommendations; however, it had already initiated most of the work
recommended by CSB. Two recipients also stated that although they met with CSB to provide
input on the appropriateness of potential recommendations, CSB did not apply that information
in the final report. Recipients stated that CSB could improve its relationship with recipients and
others such as OSHA by working more collaboratively. Enhanced collaboration and
coordination with stakeholders could improve the recommendations process by preventing
overlap and redundant actions on the part of recipients.

Recommendations
We recommend that CSB:

   1.	 Revise CSB guidance, Board Order 022, to include followup on closed recommendations.

   2.	 Follow up on a sample of closed recommendations every 3 years and analyze whether
       adherence and/or recipient conditions have changed.


Agency Comments and OIG Evaluation
CSB concurred with our findings regarding facility adherence to closed recommendations.
Specifically, CSB’s Chairman stated that she “will ask her staff to propose an amendment to
Board Order 022 to include followup action on selected, major closed recommendations.”

However, CSB needs to address how often it would conduct followup on closed
recommendations. Per OMB Circular A-50, we expect that CSB's response to these
recommendations will contain an action plan, with milestones, that will specify the size and
frequency of closed recommendation followup.




                                                 5

                              Status of Recommendations and
                                Potential Monetary Benefits

                                                                                                                     POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                       BENEFITS (in $000s)2

                                                                                                         Planned
Rec.     Page                                                                                           Completion   Claimed     Agreed To
No.       No.                         Subject                        Status1          Action Official      Date      Amount       Amount

 1        5     Revise CSB guidance, Board Order 022, to include        O             CSB Chairman
                followup on closed recommendations.

 2        5     Follow up on a sample of closed recommendations         O             CSB Chairman
                every 3 years and analyze whether adherence
                and/or recipient conditions have changed.




     1    O = recommendation is open with agreed-to corrective actions pending
          C = recommendation is closed with all agreed-to actions completed
          U = recommendation is undecided with resolution efforts in progress

     2    Assessing potential monetary benefits was not an objective of this evaluation




                                                                             6

                                                                                         Appendix A

           Detailed Listing of Recommendations in Sample
Category      Report – Recipient           Recommendation
Facility      Union Carbide Taft Plant –   1998-05-I-LA-R1: Post signs containing the warning “Danger,
              Union Carbide                Confined Space: Do Not Enter Without Authorization” or similar
                                           wording at potential entryways when tanks, vessels, pipes, or
                                           other similar chemical industry equipment are opened. When
                                           nitrogen is added to a confined space, post an additional sign
                                           that warns personnel of the potential nitrogen hazard.

                                           1998-05-I-LA-R2: Ensure that the plant safety program
                                           addresses the control of hazards created by erecting temporary
                                           enclosures around equipment that may trap a dangerous
                                           atmosphere in the enclosure if the equipment leaks or vents
                                           hazardous material.

Facility      Tosco Avon Refinery          1999-014-I-CA-R2: Implement a program to ensure the safe
              Petroleum Naphtha Fire –     conduct of hazardous nonroutine maintenance. At a minimum,
              Ultramar Diamond             require that:
              Shamrock Golden Eagle            • A written hazard evaluation is performed by a
              Refinery                              multidisciplinary team and, where feasible, conducted
                                                    during the job planning process prior to the day of job
                                                    execution.
                                               • Work authorizations for jobs with higher levels of
                                                    hazards receive higher levels of management review,
                                                    approval, and oversight.
                                               • A written decision-making protocol is used to determine
                                                    when it is necessary to shut down a process unit to
                                                    safely conduct repairs.
                                               • Management and safety personnel are present at the
                                                    job site at a frequency sufficient to ensure the safe
                                                    conduct of work.
                                               • Procedures and permits identify the specific hazards
                                                    present and specify a course of action to be taken if
                                                    safety requirements such as controlling ignition sources,
                                                    draining flammables, and verifying isolation are not met.
                                               • The program is periodically audited, generates written
                                                    findings and recommendations, and implements
                                                    corrective actions.

                                           1999-014-I-CA-R3: Ensure that management of change reviews
                                           are conducted for changes in operating conditions, such as
                                           altering feedstock composition, increasing process unit
                                           throughput, or prolonged diversion of process flow through
                                           manual bypass valves.

                                           1999-014-I-CA-R4: Ensure that your corrosion management
                                           program effectively controls corrosion rates prior to the loss of
                                           containment or plugging of process equipment, which may affect
                                           safety.




                                                   7

Category   Report – Recipient            Recommendation
Facility   BP Amoco Thermal              2001-03-I-GA-R4: Implement a program to conduct periodic
           Decomposition Incident –      management reviews of incidents and near-miss incidents. Look
           Solvay Advanced Polymers,     for trends and patterns among incidents. Address root causes
           Augusta Facility              and implement and track corrective measures.

                                         2001-03-GA-R5: Revise process safety information to include:
                                            • Information regarding the decomposition reactions of
                                                Amodel.
                                            • Design intent, basis, capacity, and limitations of
                                                equipment.
                                            • Hazards and consequences of deviations from design
                                                intent and operating limits.

                                         2001-03-GA-R6: Revalidate hazard analyses for the Amodel
                                         process to address:
                                             • Credible deviations from process intent and their
                                                consequences.
                                             • Hazards associated with startup and shutdown
                                                operations.
                                             • Prevention of accumulations of potentially hazardous
                                                masses of polymer.

                                         2001-03-I-GA-R7: Revise your lockout/tagout program to ensure
                                         that equipment is rendered safe prior to opening for
                                         maintenance. At a minimum, ensure that equipment opening
                                         procedures contain a stop work provision that requires higher
                                         levels of management review and approval when safe opening
                                         conditions, such as equipment depressurization, cannot be
                                         verified.

                                         2001-03-I-GA-R8: Ensure that your management of change
                                         policy applies to operational and procedural modifications.
Facility   Georgia Pacific Corporation   2002-01-I-AL-R5: Evaluate mill process sewer systems where
           Hydrogen Sulfide Poisoning    chemicals may collect and react to identify potential hazardous
           – Georgia Pacific - Naheola   reaction scenarios to determine if safeguards are in place to
           Mill                          decrease the likelihood or consequences of such interactions.
                                         Evaluate sewer connections and ensure that materials that could
                                         react to create a hazardous condition are not inadvertently
                                         mixed, and that adequate mitigation measures are in place if
                                         such mixing does occur.

                                         2002-01-I-AL-R6: Establish programs to comply with
                                         recommendations from manufacturers of sodium hydrosulfide
                                         (NaSH) regarding its handling, such as preventing it from
                                         entering sewers because of the potential for acidic conditions.

                                         2002-01-I-AL-R7: Establish programs to require the proper
                                         design and maintenance of manway seals on closed sewers
                                         where hazardous materials are present.

                                         2002-01-I-AL-R8: Identify areas of the plant where hydrogen
                                         sulfide (H2S) could be present or generated, and institute
                                         safeguards (including warning devices) to limit personnel
                                         exposure. Institute a plan and procedures for dealing with



                                                 8

Category   Report – Recipient          Recommendation
                                       potential H2S releases in these areas, and require that anyone
                                       who may be present is adequately trained on appropriate
                                       emergency response practices, including attempting rescue.
                                       Require contractors working in these areas to train their
                                       employees on the specific hazards of H2S, including appropriate
                                       emergency response practices.

                                       2002-01-I-AL-R9: Update the Naheola mill emergency response
                                       plan to include procedures for decontaminating personnel who
                                       are brought to the first-aid station. Include specific instructions
                                       for decontaminating personnel exposed to H2S so that they do
                                       not pose a secondary exposure threat to medical personnel.
Facility   BLSR Operating Ltd. Vapor   2003-06-I-TX-R8: Develop a written Waste Acceptance Plan as
           Cloud Fire – BLSR           recommended by API Order No. G00004, Guidelines for
           Operating                   Commercial Exploration and Production Waste Management
                                       Facilities.
                                            • Require the shipper or carrier to properly classify the
                                                flammability hazard of exploration and production (E&P)
                                                waste liquids.
                                            • Require the hauler to provide information that identifies
                                                the flammability hazard of the material before accepting
                                                the load, such as a material safety data sheet (MSDS).

                                       2003-06-I-TX-R9: Develop and implement written procedures
                                       and provide training to employees on the safe handling of all
                                       waste liquids delivered to the facility in accordance with API
                                       Order No. G00004, Guidelines for Commercial Exploration and
                                       Production Waste Management Facilities; and API RP-2219,
                                       Safe Operation of Vacuum Trucks in Petroleum Service.
                                           • Include requirements for proper grounding of trucks and
                                               eliminating other sources of ignition (e.g., facility
                                               electrical equipment and smoking in unloading areas).
                                           • Ensure that the material is presented in languages or
                                               formats that are clearly understood by all affected
                                               personnel.

                                       2003-06-I-TX-R10: Develop written procedures and provide
                                       training to employees on unloading all flammable or potentially
                                       flammable E&P waste liquids.
                                            • Avoid unloading flammable liquids onto an open work
                                                area, such as the mud disposal and washout pad.
                                            • Include alternative unloading method(s), such as using a
                                                closed piping system to minimize vapor generation.
                                            • Ensure that the material is presented in languages or
                                                formats that are clearly understood by all affected
                                                personnel.

                                       2003-06-I-TX-R11: Develop written emergency procedures and
                                       provide training to employees on response to abnormal or
                                       emergency situations, including uncontrolled flammable vapor
                                       releases that can result in a fire or explosion hazard. Ensure that
                                       the material is presented in languages or formats that are clearly
                                       understood by all affected personnel.




                                               9

Category      Report – Recipient            Recommendation
Corporation   Tosco Avon Refinery           1999-014-I-CA-R1: Conduct periodic safety audits of your oil
              Petroleum Naphtha Fire –      refinery facilities in light of the findings of this report. At a
              Tosco Corporation             minimum, ensure that:
              (Ultramar Diamond             Audits assess the following:
              Shamrock facility sold to          • Safe conduct of hazardous non-routine maintenance.
              Tesoro Corporation)                • Management oversight and accountability for safety.
                                                 • Management of change program.
                                                 • Corrosion control program.
                                                 • Audits are documented in a written report that contains
                                                     findings and recommendations and is shared with the
                                                     workforce at the facility.
                                                 • Audit recommendations are tracked and implemented.
Corporation   BP Amoco Thermal              2001-03-I-GA-R2: Ensure that a program is in place at facilities
              Decomposition Incident –      acquired from BP Amoco Performance Polymers to
              Solvay Advanced Polymers,     systematically review the hazards associated with new and
              L.L.C.                        modified processes and equipment as operating experience
                                            accrues. Ensure that facilities correct all identified design,
                                            operation, and maintenance deficiencies. Verify that operating
                                            experience does not invalidate the design basis for equipment.

                                            2001-03-I-GA-R3: Revise the Material Safety Data Sheet
                                            (MSDS) for Amodel to warn of the hazards of accumulating large
                                            masses of molten polymer. Communicate the MSDS changes to
                                            current and past customers (who may retain inventories of this
                                            product).
Corporation   Georgia Pacific Corporation   2002-01-I-AL-R1: Conduct periodic safety audits of Georgia-
              Hydrogen Sulfide Poisoning    Pacific pulp and paper mills in light of the findings of this report.
              – Georgia Pacific             At a minimum, ensure that management systems are in place at
              Corporation                   the mills to:
                                                • Evaluate process sewers where chemicals may collect
                                                     and interact, and identify potential hazardous reaction
                                                     scenarios to determine if safeguards are in place to
                                                     decrease the likelihood or consequences of such
                                                     interactions. Take into account sewer system
                                                     connections and the ability to prevent inadvertent mixing
                                                     of materials that could react to create a hazardous
                                                     condition.

                                            2002-01-I-AL-R2: Conduct periodic safety audits of Georgia-
                                            Pacific pulp and paper mills in light of the findings of this report.
                                            At a minimum, ensure that management systems are in place at
                                            the mills to:
                                                • Identify areas of the mill where hydrogen sulfide (H2S)
                                                     could be present or generated, and institute safeguards
                                                     (including warning devices) to limit personnel exposure.
                                                     Require that personnel working in the area are trained to
                                                     recognize the presence of H2S and respond
                                                     appropriately. Update emergency response plans for
                                                     such areas to include procedures for decontaminating
                                                     personnel exposed to toxic gas.




                                                    10 

Category     Report – Recipient            Recommendation
                                           2002-01-I-AL-R3: Conduct periodic safety audits of Georgia-
                                           Pacific pulp and paper mills in light of the findings of this report.
                                           At a minimum, ensure that management systems are in place at
                                           the mills to:
                                               • Apply good engineering and process safety principles to
                                                    process sewer systems. For instance, ensure that
                                                    hazard reviews and management of change (MOC)
                                                    analyses are completed when additions or changes are
                                                    made where chemicals could collect and react in
                                                    process sewers. (Such principles may be found in
                                                    publications from the Center for Chemical Process
                                                    Safety [CCPS].)

                                           2002-01-I-AL-R4: Communicate the findings and
                                           recommendations of this report to the workforce and contractors
                                           at all Georgia-Pacific pulp and paper mills.
Government   BLSR Operating Ltd. Vapor     2003-06-I-TX-R14: Require that all permitted drillers and
             Cloud Fire – Texas Railroad   producers identify and document (e.g., material safety data
             Commission                    sheet [MSDS]) the potential flammability hazard of exploration
                                           and production (E&P) waste liquids. Provide the information to
                                           workers and contractors in languages clearly understood by the
                                           recipients.

                                           2003-06-I-TX-R15: Provide information (e.g., safety bulletin) to
                                           industry on the potential flammability hazard associated with
                                           basic sediment and water (BS&W) and other E&P waste liquids.
                                               • Waste liquids can contain sufficient hydrocarbons to be
                                                   classified as flammable liquids.
                                               • The waste liquid removal method can result in removing
                                                   significant quantities of flammable hydrocarbon product
                                                   such that the mixture in the transport container may
                                                   require classification as a flammable liquid under
                                                   Occupational Safety and Health Administration (OSHA)
                                                   or U.S. Department of Transportation (DOT) regulations.
Government   Kaltech Industries Waste      2002-02-I-NY-R4: Raise the priority of inspections of large
             Mining Explosion – New        quantity generators located in mixed-occupancy facilities within
             York State Department of      densely populated areas.
             Environmental
             Conservation                  2002-02-I-NY-R5: Share data, such as the Resource
                                           Conservation and Recovery Act (RCRA) biennial report, with the
                                           New York City Fire Department (FDNY) and Department of
                                           Environmental Protection (NYCDEP) concerning the identity,
                                           location, and hazardous waste inventories of large quantity
                                           generators within the City to enhance inspection and
                                           enforcement activities.
Government   Herrig Brothers Farm          1998-007-I-IA-R3: Develop a program to ensure implementation
             Propane Tank Explosion –      of the requirements of the National Fire Protection Association's
             Iowa State Fire Marshall      NFPA-58 Standard for the Storage and Handling of Liquefied
                                           Petroleum Gases, as adopted by Iowa law. Ensure that this
                                           program includes, at a minimum the following element:
                                                • Designation by regulation of the party (such as a facility
                                                    owner or installer) who is responsible for submitting
                                                    planned construction or modification documents to the
                                                    State Fire Marshall.


                                                   11 

Category     Report – Recipient          Recommendation
                                         1998-007-I-IA-R4: Develop a program to ensure implementation
                                         of the requirements of the National Fire Protection Association’s
                                         NFPA-58 Standard for the Storage and Handling of Liquefied
                                         Petroleum Gases, as adopted by Iowa law. Ensure that this
                                         program includes, at a minimum, the following elements:
                                              • Procedures for approving the plans for new or modified
                                                  installations.

                                         1998-007-I-IA-R5: Develop a program to ensure implementation
                                         of the requirements of the National Fire Protection Association’s
                                         NFPA-58 Standard for the Storage and Handling of Liquefied
                                         Petroleum Gases, as adopted by Iowa law. Ensure that this
                                         program includes, at a minimum, the following elements:
                                              • Procedures governing the issuance and posting of
                                                  permits authorizing the use of equipment.
Government   West Pharmaceuticals        2003-07-I-NC-R6: Identify the manufacturing industries at risk for
             Services Dust Explosion     combustible dust explosions, and develop and conduct an
             and Fire – North Carolina   outreach program on combustible dust hazards.
             Department of Labor
Government   Reactives Hazard            2001-01-H-R4: Modify the accident reporting requirements in
             Investigation/Reactives     RMP Info to define and record reactive incidents. Consider
             Hazard Study – U.S.         adding the term "reactive incident" to the four existing "release
             Environmental Protection    events" in EPA's current 5-year accident reporting requirements
             Agency                      (Gas Release, Liquid Spill/Evaporation, Fire, and Explosion).
                                         Structure this information collection to allow EPA and its
                                         stakeholders to identify and focus resources on industry sectors
                                         that experienced the incidents; chemicals and processes
                                         involved; and impact on the public, the workforce, and the
                                         environment.




                                                12 

                                                                                    Appendix B




March 9, 2007

Bill A. Roderick
Acting Inspector General
U.S. Environmental Protection Agency
1200 Pennsylvania Ave, NW (2410T)
Washington, DC 20460

Dear Acting Inspector General Roderick:

My staff and I have reviewed your draft evaluation report on adherence to closed
recommendations. We were pleased to learn that you found 100 percent adherence to the closed
recommendations. In addition, we were pleased to see the majority of recipients you contacted
thought the Chemical Safety and Hazard Investigation Board (CSB) recommendations made
sense and were “the right thing to do”. We strive to make our recommendations practical,
feasible, and meaningful ways to improve safety. Your evaluation results demonstrate the
powerful and lasting effect the CSB’s work has on safety.

I will ask my staff to propose an amendment to Board Order 022, CSB Recommendation
Program, to include follow-up action on selected, major closed recommendations. The goal will
be to conduct periodic evaluation of the impacts of these selected recommendations.
Recommendations chosen for evaluation will be those with clear potential to reduce risks for
issues of national importance, such as widespread risks in the chemical industry. I believe this
targeted approach will maximize the value of our follow-up consistent with the intent of your
recommendation. Of course, this commitment would require and be contingent upon some
additional staff resources, and depending upon the nature of the follow-up, paperwork reduction
act clearances from OMB.

If you or your staff has any questions regarding this response, please contact Bea Robinson, audit
liaison, at 202-261-7627. I thank you and your staff for your efforts on this evaluation.


                                               13 

Sincerely, 


/s/ 


Carolyn W. Merritt 

Chairperson & CEO 





                       14
                                                                       Appendix C

                                    Distribution

Chairman, U.S. Chemical Safety and Hazard Investigation Board
Audit Liaison, U.S. Chemical Safety and Hazard Investigation Board
General Counsel, U.S. Chemical Safety and Hazard Investigation Board
Assistant Inspector General for Congressional and Public Liaison
Acting Inspector General




                                            15 

